SEPTEMBER 9, 2010
  AUDIT REPORT




                                                      OFFICE OF AUDITS




     STATUS OF NASA’S TRANSITION TO INTERNET
            PROTOCOL VERSION 6 (IPV6)




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-10-022 (ASSIGNMENT NO. A-09-017-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

ARPANET      Advanced Research Projects Agency Network
CIO          Chief Information Officer
DNS          Domain Name System
IP           Internet Protocol
IPv4         Internet Protocol Version 4
IPv6         Internet Protocol Version 6
IT           Information Technology
LAN          Local Area Network
NISN         NASA Integrated Services Network
NIST         National Institute of Standards and Technology
OCIO         Office of the Chief Information Officer
OMB          Office of Management and Budget


                                                              REPORT NO. IG-10-022
SEPTEMBER 9, 2010




                                                                                          OVERVIEW

                        STATUS OF NASA’S TRANSITION TO
                      INTERNET PROTOCOL VERSION 6 (IPV6)

                                                                                            The Issue

  Throughout its history, NASA has been at the forefront of Federal Government
  information technology (IT) innovation. This includes early adoption of leading-edge
  technologies such as cloud computing. Moreover, NASA is a leader in using the Internet
  to communicate the importance of its programs to the public, and its Web environment
  has evolved to become a cornerstone of the Agency’s business processes.

  Internet protocol (IP) is a communications protocol, or set of standard rules, used to
  transmit data over the Internet. The most widely used protocol supporting the Internet
  today is IP Version 4 (IPv4), which provides about 4.3 billion IP addresses for use
  worldwide. Over the last 6 years, the demand for IP addresses has been steadily
  accelerating due to the expansion of Internet usage worldwide and the advent of Internet-
  capable devices such as mobile phones, car navigation systems, home appliances, and
  industrial equipment. In May 2009, the Architecture and Infrastructure Committee of the
  Federal Chief Information Officers Council reported that the IPv4 pool of addresses
  would be exhausted by 2011 or 2012. In anticipation of the exhaustion of IPv4
  addresses, in late 1990 the Internet Engineering Task Force selected IP Version 6 (IPv6)
  as the successor to IPv4. IPv6 allows for an exponentially larger pool of addresses and is
  seen as the only practical and readily available long-term solution to the impending
  exhaustion of IPv4 addresses. 1 However, without adaptations, communications between
  devices using IPv4 and IPv6 are not compatible. In addition, successful transition to the
  new system is complex and requires detailed planning.

  In 2005, the Office of Management and Budget (OMB) began issuing guidance to
  Federal agencies relating to the transition to IPv6 so that they would be in a position to

        •    take advantage of the expanded IP address space and embrace future-oriented
             networking capabilities, such as converged communications, IP-aware medical
             devices, and remote sensors and




  1
      IPv4 allows for approximately 4.3x109 addresses. IPv6 allows for approximately 3.4x1038 addresses.



REPORT NO. IG-10-022
                                                                                                         OVERVIEW



            •   lead by example in U.S. enterprise IPv6 transformation. 2

     The “Planning Guide/Roadmap Toward IPv6 Adoption within the U.S. Government,”
     which defines the Federal Government’s IPv6 plan and builds on requirements set forth
     in OMB’s guidance (M-05-22), was released in May 2009. Our objective in this audit
     was to evaluate the status of NASA’s efforts to plan for IPv6 transition and integration to
     ensure appropriate implementation. Details of the audit’s scope and methodology are in
     Appendix A.

     Results

     NASA has taken preliminary steps to meet OMB requirements for IPv6 transition and
     integration, including assigning a lead official in November 2005 to coordinate NASA’s
     efforts, developing inventories of IP-aware devices and an impact analysis, and in
     June 2008 demonstrating IPv6 capability of one NASA network. However, as of March
     2010 the Agency did not have an updated or complete IPv6 transition plan as required by
     OMB. This occurred, in part, because the Agency has ample IPv4 addresses to meet its
     current and future requirements and because the individual who was leading the IPv6
     transition effort left NASA in November 2006 and no one has been assigned to replace
     him. As a result, the Agency does not have adequate assurance that it has considered all
     necessary transition elements or that the security and interoperability of its systems will
     not be affected as other Government agencies and entities transition to IPv6.
     Accordingly, even if NASA can continue meeting its communication needs using IPv4
     addresses, it should ensure that its systems are prepared as other Internet users transition
     to IPv6.

     Management Action

     We recommended that the NASA Chief Information Officer appoint an Agency official
     to lead and reinvigorate its IPv6 transition planning efforts and ensure that it implements
     key OMB planning requirements. In response to a draft of this report, the Chief
     Information Officer concurred with our recommendation and stated that her office will
     appoint an IPv6 lead to develop an IPv6 transition plan as required by OMB by
     March 31, 2011 (see NASA’s comments in Appendix F).

     We consider the Chief Information Officer’s proposed actions to be responsive to our
     recommendation. Therefore, the recommendation is resolved and will be closed upon
     verification that management has completed the corrective actions.
     2
         From “Federal Government Transition Internet Protocol Version 4 (IPv4) to Internet Protocol Version 6
         (IPv6), Frequently Asked Questions,” February 15, 2006, available online at
         http://www.cio.gov/documents/IPv6_FAQs.pdf (accessed May 19, 2010). This document provides
         clarification to OMB Memorandum M-05-22, “Transition Planning for Internet Protocol Version 6
         (IPv6),” August 2, 2005, which advised agencies to take specific actions to ensure an orderly and secure
         transition to IPv6.



ii                                                                                         REPORT NO. IG-10-022
SEPTEMBER 9, 2010




                                                         CONTENTS

  INTRODUCTION
      Background __________________________________________ 1
      Objective ____________________________________________ 6

  RESULTS
      Transition Planning Needs Improvement ___________________ 7

  APPENDIX A
      Scope and Methodology _______________________________ 15
      Review of Internal Controls _____________________________ 17
      Prior Coverage _______________________________________ 18

  APPENDIX B
      Glossary____________________________________________ 19

  APPENDIX C
      Guidance for Testing IPv6 Capabilities ____________________ 23

  APPENDIX D
      Requirements and Guidance for a Transition Plan ___________ 25

  APPENDIX E
      OMB M-05-22 _______________________________________ 28

  APPENDIX F
      Management Comments _______________________________ 31

  APPENDIX G
      Report Distribution ___________________________________ 34




REPORT NO. IG-10-022
SEPTEMBER 9, 2010




                                                                                     INTRODUCTION


Background

  The Internet is a network consisting of millions of private, public, academic, business,
  and Government networks of local to global scope that are linked by a broad array of
  electronic and optical networking technologies. NASA’s Internet environment is a
  mechanism for providing information about NASA to the public and a cornerstone of the
  Agency’s business processes. Recently, the NASA Chief Information Officer (CIO)
  stated: “Information technology at NASA has been, and will remain, a critical enabling
  capability for the Agency, whether in NASA’s main themes of Space Flight, Exploration,
  Science, Aeronautics, and Mission Support, or any iteration thereof for the foreseeable
  future.” This linkage between information technology (IT) and various aspects of the
  Agency’s mission underscores the importance of IT across the Agency.

  The Internet began when a small research team, including the Defense Department’s
  Advanced Research Projects Agency and the Massachusetts Institute of Technology,
  created the Advanced Research Projects Agency Network (ARPANET), the world’s first
  operational packet-switching network. Packet switching, the rapid store-and-forward
  networking design, divides messages up into packets. 3 Routing decisions are made per
  packet, making it possible for separate physical computer networks to form one logical
  network.

  The communications protocol, or set of standard rules, used to transmit data over the
  Internet has evolved through the years. The Network Control Program was developed to
  provide connections between processes running on different ARPANET host computers.
  Application services, like e-mail or file transfer, were built on top of the Network Control
  Program to handle connections to other host computers. In 1983, Transmission Control
  Protocol and the Internet protocol (IP) replaced the Network Control Program and made
  possible the connection of almost any computer network to ARPANET.

  Addressing is a basic IP capability. The Internet, including NASA’s Internet
  environment, currently relies on IP Version 4 (IPv4) addresses to uniquely identify
  devices on the network so that information can be transmitted from one device, such as a
  computer, to another as illustrated in Figure 1.




  3
      A packet is a formatted unit of data, including source and destination addresses, which can be carried
      over the Internet.



REPORT NO. IG-10-022                                                                                           1
                                                                                                INTRODUCTION



    Figure 1. IP Source/Destination Example




    Source: GAO Report, “Internet Protocol Version 6: Federal Agencies Need to Plan for
    Transition and Manage Security Risks” (GAO-05-471, May 20, 2005).


    IPv4 provides for a finite number of addresses ranging from 0.0.0.0 to 255.255.255.255.
    See Figure 2 for an illustration of an IPv4 address.

    Figure 2. An Illustration of an IPv4 Address




    Source: TCP/IP Fundamentals for Microsoft Windows (2006).


    Due to rapid population growth, mass-market broadband deployment, applications such
    as Voice over Internet Protocol, the addition of network addressable devices such as
    mobile phones and sensors to the Internet, and continuing cost reductions in technology
    that have brought the Internet to large populations in developing economies, demand for
    IPv4 addresses has been steadily accelerating. In light of this rapid worldwide growth,
    the Architecture and Infrastructure Committee of the Federal Chief Information Officers
    Council reported in May 2009 that the pool of IPv4 addresses would be exhausted by
    2011 or 2012.

    Foreseeing the eventual depletion of IPv4 addresses, the Internet technical community
    took action to manage IPv4 addresses as a finite resource and to plan for the future by



2                                                                                         REPORT NO. IG-10-022
INTRODUCTION



  developing a new addressing protocol, IP Version 6 (IPv6), also referred to as IP Next
  Generation (IPng). 4

  While IPv4 allows for 232 or 4,294,967,296 possible addresses, IPv6 allows for 2128 or
  340,282,366,920,938,463,463,374,607,431,768,211,456 possible addresses (see
  Figure 3). An example of an IPv6 address is
  3FFE:2900:D005:0000:02AA:00FF:FE28:9C5A. See Figure 4 for an illustration of an
  IPv6 address.

  Figure 3. Comparison of IPv4 and IPv6 Addresses




  Source: GAO Report, “Internet Protocol Version 6: Federal Agencies Need to Plan for
  Transition and Manage Security Risks” (GAO-05-471, May 20, 2005).



  Figure 4. An Illustration of an IPv6 Address




  Source: TCP/IP Fundamentals for Microsoft Windows (2006).




  4
      The Internet Assigned Numbers Authority assigned version number 6 to IPng since version 5 was
      reserved for an experimental protocol, “Internet Stream Protocol, Version 2 (ST2)” (see Appendix B for
      details).



REPORT NO. IG-10-022                                                                                           3
                                                                                   INTRODUCTION



    Several organizations manage and distribute IPv4 and IPv6 addresses:

       •   The Internet Assigned Numbers Authority coordinates the global pool of IPv4 and
           IPv6 addresses and provides them to five Regional Internet Registries. The
           Internet Assigned Numbers Authority is one of the Internet’s oldest institutions,
           dating back to the 1970s. Today, the Internet Assigned Numbers Authority is
           operated by the Internet Corporation for Assigned Names and Numbers.

       •   The Regional Internet Registries manage and distribute public IPv4 and IPv6
           addresses within their respective regions. The five Regional Internet Registries
           are the African Network Information Center, Asia Pacific Network Information
           Centre, American Registry for Internet Numbers, Latin American and Caribbean
           Internet Addresses Registry, and Réseaux IP Européens Network Coordination
           Centre.

       •   The American Registry for Internet Numbers, a Regional Internet Registry, is a
           non-profit membership organization established for the administration and
           distribution of IP addresses in the United States, Canada, and many Caribbean
           and North Atlantic islands.

    NASA officials estimate that the American Registry for Internet Numbers assigned about
    4 million IPv4 addresses to NASA. In March 2010, NASA was using approximately
    203,000 IPv4 addresses and holding in reserve approximately 434,000 IPv4 addresses for
    network design, network configuration, and other needs. As a result, with more than 3.3
    million unused IPv4 addresses, NASA officials said they do not believe that the Agency
    will exhaust its supply of IPv4 addresses or need to begin using IPv6 addresses in the
    near future.

    However, the Internet Assigned Numbers Authority and the American Registry for
    Internet Numbers have warned that many new Internet computing devices will have IPv6
    addresses by the end of 2011. Therefore, it is vital that the networks used to transfer data
    over the Internet, including NASA’s systems, are capable of supporting IPv6.




4                                                                           REPORT NO. IG-10-022
INTRODUCTION



  OMB Requirements and Guidance. Office of Management and Budget (OMB)
  Memorandum M-05-22, “Transition Planning for Internet Protocol Version 6 (IPv6),”
  August 2, 2005, was OMB’s first policy memorandum to agencies to ensure an orderly
  and secure transition to IPv6. The OMB policy included the following deadlines for
  required agency actions: 5

        November 15, 2005
             • Assign an official to lead and coordinate agency planning efforts for IPv6
               transition.
             • Complete an inventory of existing routers, switches, and hardware firewalls
               (IP-aware hardware devices in the agency’s infrastructure, also called the
               network backbone).

        February 2006
             • Using guidance to be issued by the Architecture and Infrastructure Committee
               of the Federal Chief Information Officers Council, 6 address each of the actions
               identified in Attachment C of the OMB policy (including conducting a
               requirements analysis to identify current scope of IPv6 within an agency,
               current challenges using IPv4, and target requirements) and provide the
               completed IPv6 transition plan as part of the agency’s enterprise architecture
               submission to OMB.

        June 30, 2006
             • Complete an inventory of existing IP-aware devices and technologies that are
               components of the agency infrastructure but were not included in the first
               inventory.
             • Complete an impact analysis of fiscal and operational impacts and risks related
               to the transition to IPv6.

        June 30, 2008
             • All agency infrastructures must be capable of successfully passing IPv6 data
               traffic and supporting IPv6 addresses. Agency networks also must be able to
               communicate with this infrastructure.

  In addition, the OMB policy recommended that all new IT procurements be
  IPv6 compliant – that is, able to receive, process, and transmit or forward (as appropriate)

  5
      See M-05-22 in Appendix E for the original language of the required actions. We reworded the
      requirements in this report for clarity based on information subsequently issued by OMB and the
      Architecture and Infrastructure Committee of the Federal Chief Information Officers Council.
  6
      The Architecture and Infrastructure Committee of the Federal Chief Information Officers Council issued
      “IPv6 Transition Guidance” in February 2006. In May 2009, it issued “Planning Guide/Roadmap
      Toward IPv6 Adoption within the U.S. Government.”



REPORT NO. IG-10-022                                                                                           5
                                                                                             INTRODUCTION



    packets of IPv6 data – to the maximum extent practicable to avoid additional costs in the
    future. The OMB memorandum also recommended that agency products or systems be
    able to interoperate with systems using either the IPv4 or IPv6 addressing convention.

    To address the many questions concerning IPv6 generated by its August 2005 policy, in
    February 2006, OMB published “Federal Government Transition Internet Protocol
    Version 4 (IPv4) to Internet Protocol Version 6 (IPv6), Frequently Asked Questions.” 7
    The document addressed questions about the scope of agencies’ IPv6 efforts, the
    inventory submissions, and the transition plan each agency was to submit to OMB in
    February 2006.

    In May 2009, OMB released the “Planning Guide/Roadmap Toward IPv6 Adoption
    within the U.S. Government” (the IPv6 Planning Guide), which sets out the Federal
    Government’s movement toward adopting IPv6 and builds on the requirements in the
    August 2005 OMB policy. In OMB’s memorandum announcing the release of the
    Planning Guide, OMB recommends that agencies

          •    use their enterprise architecture and capital planning activities to plan for the
               deployment of IPv6-enabled 8 network services, show how they intend to use
               these services to power IPv6-enabled applications, commit to specific
               measureable improvements in agency performance, and reflect these
               improvements in their investment proposals;
          •    leverage the guidance milestones provided in the IPv6 Planning Guide to develop
               an effective transition plan;
          •    set up test laboratories and prototype networks to acquire IPv6 experience and
               expertise; and
          •    deploy secure IPv6-enabled network services during regular technology upgrade
               cycles.


Objective

    Our objective was to evaluate NASA’s efforts and plans for IPv6 transition and
    integration. We reviewed the Agency’s implementation of planning requirements for
    IPv6 transition in accordance with the August 2005 OMB policy and the status of
    NASA’s progress with IPv6 integration since the May 2009 release of the IPv6 Planning
    Guide. We also evaluated the effectiveness of NASA’s IT security controls for devices
    configured to enable IPv6. See Appendix A for details of the audit’s scope and
    methodology, our review of internal controls, and a list of prior coverage. See
    Appendix B for a glossary of selected terms.

    7
        Available online at http://www.cio.gov/documents/IPv6_FAQs.pdf (accessed May 19, 2010).
    8
        OMB defines “IPv6 enabled” as meaning that IPv6 is being used (see Appendix B).



6                                                                                    REPORT NO. IG-10-022
RESULTS




                                                      TRANSITION PLANNING NEEDS
                                                                   IMPROVEMENT

             NASA took preliminary steps in 2004–2010 for IPv6 transition and integration that
             were consistent with the OMB guidance. However, since that time NASA has not
             continued with active IPv6 planning and has not fully implemented OMB’s planning
             requirements for transition to IPv6. Without adequate planning, NASA may
             encounter interoperability and security challenges when other parts of the Federal
             Government and the worldwide IT community transition to IPv6. As a result, NASA
             could find itself unprepared to securely communicate using IPv6.


NASA Has Taken Preliminary Steps for Transition and Integration

  NASA has taken preliminary steps to meet OMB requirements for IPv6 transition and
  recommendations for integration that included the following actions:

  Assigning a Lead. According to officials in the NASA Office of the Chief Information
  Officer (OCIO), in 2005 the NASA Deputy CIO was designated as the official to lead
  and coordinate planning for IPv6 transition. The Deputy CIO was actively involved with
  the IPv6 working group sponsored by the Architecture and Infrastructure Committee of
  the Federal Chief Information Officers Council. However, since he left the Agency in
  November 2006, no other official has been assigned to lead NASA’s IPv6 transition
  effort.

  Developing Inventories and an Impact Analysis. According to OMB, all Federal
  agencies, including NASA, were required to meet the November 15, 2005, deadline for
  completing an “inventory of existing routers, switches, and hardware firewalls” and the
  June 30, 2006, deadline for completing an “inventory of existing IP compliant devices
  and technologies not captured in first inventory.” OMB also required agencies to
  complete an “impact analysis of fiscal and operational impacts and risks” related to IPv6
  transition by June 30, 2006. We were unable to assess NASA’s inventories or impact
  analysis because the Agency could not provide us with copies of these documents. 9
  However, we were able to verify that NASA OCIO had issued two data calls to the
  NASA Centers requesting the inventory information required by OMB, and we
  confirmed that the inventory information requested was consistent with OMB
  requirements. We also confirmed that six Centers 10 provided the requested information



  9
      NASA OCIO did not retain copies of the submissions and was unable to obtain copies from OMB.
  10
       Ames Research Center, Dryden Flight Research Center, Glenn Research Center, Kennedy Space Center,
       Marshall Space Flight Center, and Stennis Space Center.



REPORT NO. IG-10-022                                                                                       7
                                                                                                             RESULTS



    and that two Centers 11 prepared impact analyses. However, without reviewing NASA’s
    submissions, we could not assess their quality or completeness.

    Amending the Federal Register. In August 2006, NASA, the General Services
    Administration, and the Department of Defense published a proposed rule in the Federal
    Register to amend the Federal Acquisition Regulation “to ensure that all new IT
    acquisitions using Internet Protocol are IPv6 compliant.” This proposed rule was
    finalized on December 10, 2009. NASA OCIO officials stated that all NASA Centers
    were notified of the final rule and that IT contracts created after that date should be in
    compliance.

    Demonstrating Capability. NASA developed an IPv6 Demonstration Plan 12 and, in
    June 2008, successfully demonstrated IPv6 capability on the NASA Integrated Services
    Network (NISN) corporate backbone through the core Standard IP (SIP) routers. NASA
    determined the IPv6 accessibility of 12 core routers by using a utility to send a data
    packet to 12 IPv6 addresses and successfully receiving a reply. See Appendix C for the
    specific guidance we used to determine NASA’s compliance with this requirement.

    We also reviewed the certification and accreditation documentation and a vulnerability
    scan for the NISN corporate backbone. We found that security controls were generally
    effective for the 12 core routers that are IPv6-enabled.

    Acquiring IPv6 Experience. We found that NISN engineers tested IPv6 functionality
    on the NASA Prototyping Network, a network laboratory environment used to test new
    technologies, protocols, and pre-operational equipment before deployment to the
    production network. For example, one test performed in 2004 on the NASA Prototyping
    Network showed that IPv6 would work with IPv4 using the dual-stack transition
    mechanism, 13 in which the network was configured to support IPv4 and IPv6
    concurrently. Tests were conducted using network utilities common to IPv4 and IPv6.
    NISN engineers also used the NASA Prototyping Network to test security of the IPv6
    control plane – the services, settings, and data streams that support the dynamic operation
    and traffic handling of routers – with the network running IPv6 (IPv6 enabled). 14

    These preliminary steps, while providing some assurance that NASA can adapt to the
    IPv6 transition, are not sufficient to ensure that NASA will be able to continue to
    effectively communicate over the Internet with the public, other Government agencies,
    and its worldwide partners when they transition to IPv6. The 2004 test noted that further
    11
         Kennedy Space Center and Marshall Space Flight Center.
    12
         “National Aeronautics and Space Administration (NASA) Agencywide IPv6 - Demonstration Plan,”
         June 6, 2008.
    13
         See Appendix B’s entries for dual-stack and transition mechanism.
    14
         The control plane supports the dynamic state of the router: the routing tables, access logs, traffic
         statistics, and cryptographic associations. If an attacker can inject control plane information into your
         router, then the attacker can exercise some control over packet forwarding, expose traffic to interception,
         and prevent effective communication among networks and hosts.



8                                                                                           REPORT NO. IG-10-022
RESULTS



  testing was needed for interoperability (as discussed on page 10), which has not yet been
  conducted. In addition, although the NISN corporate backbone was tested, NASA has
  not assessed whether testing is needed on other systems, such as mission systems.


IPv6 Transition Efforts Have Stalled

  While NASA has taken a number of preliminary steps for transitioning to IPv6, its efforts
  have stalled partly because the individual assigned to lead the Agency’s transition effort
  left NASA in November 2006 and another official has yet to be assigned. In addition,
  NASA has no sense of urgency on this issue because, as previously discussed, the
  Agency has ample IPv4 addresses available to meet its current and future requirements
  and therefore does not anticipate that it will be using IPv6 addresses in the foreseeable
  future. We believe NASA needs to reinvigorate its IPv6 planning efforts because,
  regardless of NASA’s ample supply of IPv4 addresses, other users are beginning to use
  IPv6 addresses, and the transition to IPv6 is more complex than previous advances in
  Internet technology and requires detailed planning. At the time of the adoption of IPv4,
  there were less than 500 hosts connected to the Internet, a relatively small community of
  technical specialists was involved, and the Internet was operating in a non-commercial
  environment. By 2008, over 500 million hosts were connected to the Internet and 1.32
  billion users had Internet access. These numbers and the associated technical
  complexities will only continue to increase as Internet users transition to IPv6.


NASA Needs to Improve Its Transition Planning

  As of March 2010, NASA did not have an updated or complete IPv6 transition plan as
  required by OMB. As a result, the Agency does not have adequate assurance that it has
  considered all elements necessary to achieve a successful transition to IPv6. Among the
  challenges identified by the Architecture and Infrastructure Committee that agencies
  should consider is the need to maintain interoperability and security during transition, as
  well as manage the IPv6 standards and product evolution.

  Updated Transition Plan

  During our audit, NASA officials provided an IPv6 transition plan that had been in draft
  since April 2007 and that did not reflect transition elements required by OMB policy.
  OMB called for agencies to complete their IPv6 transition plans using guidance issued by
  the Architecture and Infrastructure Committee of the Federal Chief Information Officers
  Council in February 2006. This guidance outlined 17 elements agencies should consider
  to ensure all transition elements had been examined (see Appendix D). Although the
  guidance did not require that agency plans include all of the elements, 11 of the 17 are




REPORT NO. IG-10-022                                                                            9
                                                                                                                 RESULTS



     required. 15 However, NASA’s draft IPv6 transition plan does not include any of the
     11 elements, although some of the elements were addressed by NASA’s successful
     demonstration of IPv6 capability on the NISN corporate backbone and by NISN IPv6
     testing in 2004, 2005, and 2010. The following paragraphs describe five unaddressed
     elements that we believe NASA needs to consider to promote an orderly and secure
     transition to IPv6.

     Transition Priorities and Activities. NASA’s draft IPv6 transition plan does not
     identify transition priorities or activities 16 for networks other than the NISN corporate
     backbone. Rather, the draft plan states only that the Agency’s mission networks (e.g., the
     Integrated Operations Network and the Network Service Assurance Plan network) would
     be included in the Agency’s long-term IPv6 transition strategy.

     The 2009 IPv6 Planning Guide identifies priorities to help agencies in their transition:

                 External facing eCommerce servers, mail gateways, instant messaging servers, Web
                 servers, and voice over IP gateways hosting portals for remote clients, teleworkers,
                 partner agencies, and group collaboration all have to serve content across the Internet
                 backbone to external hosts. Because of IPv4 address depletion and its effect on core
                 routing, applications that rely on the Internet core for transport to external hosts
                 should upgrade first to IPv6-capable versions by 2010.

     The IPv6 Planning Guide states that the second wave of upgrades should include host
     interfaces, such as Web servers and e-mail clients, that will connect to external servers.
     The final upgrade includes “internal facing systems in an Enterprise LAN [local area
     network], as these systems can continue to rely on IPv4 NAT [Network Address
     Translation] 17 addresses for some time.” Without transition priorities and activities, the
     Agency cannot determine the impact of the transition or the order in which networks will
     get funding for upgrade.

     Interoperability and Security. NASA’s draft IPv6 transition plan does not include a
     plan for maintenance of interoperability and security during the transition from IPv4 to
     IPv6. IPv6 transition challenges include maintaining dual IPv4 and IPv6 environments
     for an extended period, interfacing with partners in various stages of the transition, and
     managing information security in an environment more vulnerable to threats. The key to
     a successful IPv6 transition is interoperability with IPv4 hosts and routers already in
     existence. For IPv6 hosts and routers to interoperate with IPv4 hosts and routers, the
     IPv6 equipment must have a transition mechanism such as dual-stack or tunneling. 18
     One test performed in 2004 on the NASA Prototyping Network concluded that further

     15
          The Architecture and Infrastructure Committee’s 2009 IPv6 Planning Guide required 11 elements to be
          included.
     16
          Both elements – transition activities and transition priorities – are included in the guidance listed in
          Appendix D.
     17
          See Appendix B for details about network address translation.
     18
          A mechanism that allows an IPv6 packet to travel through an IPv4 network (see Appendix B).



10                                                                                             REPORT NO. IG-10-022
RESULTS



  testing was needed for the tunneling mechanism: “Until IPv6 has more widespread
  application support, it will be difficult to deploy IPv6 without some method of tunneling
  with IPv4.”

  In addition to interoperability issues, IPv6 introduces new security threats. The National
  Institute of Standards and Technology (NIST) USGv6 Profile 19 concluded that the
  “current state of IPv6 security and network protection technologies and operational
  knowledge lags behind that of IPv4 and the existing Internet.” The IPv6 Planning Guide
  recommends steps for agencies to consider with regard to security, including
  development of a comprehensive IPv6 security plan and associated IPv6 policies within
  the IPv6 addressing rollout plan, upgrading network protection devices/tools for IPv6
  support, and expanding core and perimeter boundary monitoring to incorporate IPv6 and
  IPv6-in-IPv4 tunnels. NASA has not completed any of these steps.

  IPv6 Standards and Products. A fourth element not addressed in NASA’s draft IPv6
  transition plan is the use of IPv6 standards and products. While the base set of IPv6
  protocols are stable and mature, many of the Internet standards supporting IPv6 features
  and IPv6 products in development are still evolving. With evolving IPv6 standards,
  challenges exist with acquiring IPv6-compliant products that will ensure interoperability
  and security. The NIST USGv6 Profile recommends a technology acquisition profile for
  common IPv6 devices in U.S. Government IT systems. However, NASA has not decided
  how to ensure compliance with the NIST USGv6 Profile.

  Governance. The fifth element not addressed in NASA’s draft IPv6 transition plan is
  transition governance, including Agency policy and roles and responsibilities. The NIST
  USGv6 Profile states:

             Beyond being much larger (128bit vs. 32bit), the IPv6 addressing architecture makes
             for the clear definition of multiple types of addresses (e.g., link-local, global,
             multicast, anycast) and multiple scopes of addresses (e.g., global, local, link).

             Any adoption and deployment of IPv6 requires the development of an addressing
             plan. There are many significant issues associated with strategies for IPv6 address
             allocation and assignment.

  In addition, the IPv6 Planning Guide recommends a list of specific procedures for IP
  address management and allocation that includes (a) assessing existing IP address
  management and allocation governance and procedures and (b) developing and
  promulgating new/revised IPv6 address management and allocation governance
  including requirements, guidance, policy, procedures, and reporting. As of May 2010,
  NASA officials said they were working on but had not finalized an IP addressing plan.
  As NASA’s international partners and others around the world transition to IPv6, NASA


  19
       NIST Special Publication 500-267, “A Profile for IPv6 in the U.S. Government – Version 1.0,”
       July 2008.



REPORT NO. IG-10-022                                                                                  11
                                                                                                 RESULTS



     must have adequate guidance in place to ensure that its network managers can continue to
     securely meet NASA’s needs.

     No Lead for Continued Planning

     As of March 2010, NASA’s IPv6 transition plan had not been updated or completed,
     primarily because NASA had not reassigned these responsibilities in the nearly 4 years
     since the last official with responsibility for IPv6 planning left the Agency. NASA
     officials said they have not assigned a new IPv6 lead because the Agency has more than
     3.3 million unused IPv4 addresses and therefore no current need for IPv6. 20

     In our judgment, NASA should make planning for IPv6 transition more of a priority
     because even if NASA continues to use IPv4 addresses, other Internet users will begin
     using IPv6 addresses in the near future and NASA must be prepared to ensure the
     security and interoperability of its systems in this new environment.


Recommendation, Management’s Response, and Evaluation of
  Management’s Response

To ensure that NASA systems are interoperable and secure as Federal Government agencies
and other organizations transition to IPv6, we recommended that the NASA CIO assign an
IPv6 lead to complete an updated IPv6 transition plan that considers transition elements
identified by the Architecture and Infrastructure Committee of the Federal Chief
Information Officers Council in the “IPv6 Planning Guide/Roadmap Toward IPv6 Adoption
within the U.S. Government.”

     Management’s Response. The CIO concurred with our recommendation and stated that
     she will appoint an IPv6 lead by September 30, 2010, to review the OMB requirements
     and develop a compliant IPv6 transition plan. The CIO stated that this transition plan
     will be completed by March 31, 2011.

     Evaluation of Management’s Response. We consider the CIO’s proposed actions to be
     responsive to our recommendation. Therefore, the recommendation is resolved and will
     be closed upon verification that the proposed actions have been completed.

     In addition to responding to our recommendation, the CIO suggested a number of minor
     revisions to the draft report. Specifically, she suggested that we add the word
     “corporate” to our references to the NISN Backbone, noted an apparent discrepancy in
     the number of elements discussed under the heading “NASA Needs to Improve Its
     Transition Planning,” questioned whether the report should reference the Space Network
     and the Ground Network, and clarified an official’s title (see Appendix F for the full text
     of management’s comments).
     20
          As discussed on page 9, NASA has ample IPv4 addresses to meet its needs.



12                                                                                   REPORT NO. IG-10-022
RESULTS



  We used the term “NISN Backbone” in the draft because that was the term used in the
  certification and accreditation documentation provided to us by NASA. However, we
  made the change suggested by the CIO for clarification purposes. In addition, although
  there are only four subheadings in the Transition Planning section, we discuss five
  elements; two elements, transition priorities and transition activities, are combined in one
  heading. In response to the CIO’s comments, we added a footnote to clarify this point.
  Finally, we included the Space and Ground Networks in our report because they were
  referenced in NASA’s draft IPv6 transition plan. Based on the clarification from the
  CIO, we deleted the references to those networks in the final report. We also corrected
  the official’s title, to the Associate CIO for Architecture and Infrastructure.




REPORT NO. IG-10-022                                                                             13
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from September 2009 through July 2010 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives. We performed our audit at Kennedy Space Center, Marshall Space
  Flight Center, and NASA Headquarters.

  To assess implementation of key planning requirements for IPv6 transition, we reviewed
  transition and integration requirements and guidelines in the following documents:

      •   OMB Memorandum M-05-22, “Transition Planning for Internet Protocol
          Version 6 (IPv6),” August 2, 2005;

      •   OMB Memorandum, “Release of the Planning Guide/Roadmap toward IPv6
          Adoption within the US Government,” May 20, 2009;

      •   Architecture and Infrastructure Committee, Federal Chief Information Officers
          Council, “IPv6 Transition Guidance,” February 2006;

      •   Architecture and Infrastructure Committee, Federal Chief Information Officers
          Council, “Demonstration Plan to Support Agency IPv6 Compliance,” January 28,
          2008; and

      •   Architecture and Infrastructure Committee, Federal Chief Information Officers
          Council, “Planning Guide/Roadmap Toward IPv6 Adoption within the
          U.S. Government,” May 2009.

  We interviewed personnel from the NASA OCIO, the Marshall Space Flight Center
  OCIO, the Kennedy Space Center OCIO, and NISN. Officials interviewed included the
  NASA OCIO Enterprise Architect, the Associate CIO for Architecture and Infrastructure,
  Marshall’s Deputy CIO, Kennedy’s Network Engineer, the NISN Service Owner for
  Corporate Routed Data Service, and the NISN Network Engineer.

  NASA OCIO officials could not provide the inventory or impact analysis submitted to
  OMB in November 2005 and June 2006. NASA OCIO officials stated that the
  documents had been lost due to changes in personnel, and the officials were unable to
  obtain copies from OMB. OMB did issue a statement that all agencies had met the


REPORT NO. IG-10-022                                                                          15
                                                                                     APPENDIX A



     June 2008 deadline. Lacking those documents, we were unable to verify whether
     NASA’s submissions to OMB were complete and accurate.

     To identify actions taken to complete inventories and the impact analysis as required by
     OMB M-05-22, we obtained the following NASA OCIO action registry items with
     requirements for the Center OCIOs:

        •   Action Registry EA-12, “Actions for Transition Planning for Agency Internet
            Version 6 (IPv6),” required Centers to complete the first inventory due to OMB
            by November 2005. Action Registry EA-12 provided the Centers with a copy of
            the “IPv6 Transition Checklist” (Attachment A of OMB M-05-22) to complete
            the first inventory.

        •   Action Registry EA-25, “Action: IPv6 implementation activities related to
            enterprise architecture submissions to OMB that are due February 15, 2006,”
            required Centers to complete the “IPv6 Transition Checklist” for all IP devices
            not captured in the first inventory. Action Registry EA-25 also requested that the
            Centers provide input for completion of Attachment B, “Impact Analysis,” of
            OMB M-05-22.

        •   Action Registry EA-29, “Action: IPv6 Transition Planning activities to be
            completed by June 30, 2006,” required Centers to complete the inventories of
            IP-aware applications and peripherals with dependencies on the network
            backbone and complete an impact analysis.

     To obtain inventory lists submitted to the NASA OCIO, we contacted 10 NASA Center
     OCIOs: (1) Ames Research Center, (2) Dryden Flight Research Center, (3) Glenn
     Research Center, (4) Goddard Space Flight Center, (5) the Jet Propulsion Laboratory,
     (6) Johnson Space Center, (7) Kennedy Space Center, (8) Langley Research Center,
     (9) Marshall Space Flight Center, and (10) Stennis Space Center. We obtained and
     reviewed the completed OMB “IPv6 Transition Checklist,” which includes inventory
     reported to the NASA OCIO, from 6 Centers: Ames, Dryden, Glenn, Kennedy, Marshall,
     and Stennis. These inventories, if unchanged by the NASA OCIO, would have provided
     the inventory information required for the OMB submissions. Two Centers, Johnson and
     Goddard, were unable to find a record of their submission; we did not receive a response
     from the Jet Propulsion Laboratory or Langley.

     We also reviewed the following submissions to the NASA OCIO from the OCIOs at
     Kennedy and Marshall:
        •   Impact Analysis, “IP Version 6 Transition Initial Draft” (Kennedy).
        •   Impact Analysis, “Mission Support Network” (Marshall).
        •   Impact Analysis, “National Space Science Technology Center” (Marshall).
        •   Impact Analysis, “Huntsville Operations Support Center” (Marshall).


16                                                                         REPORT NO. IG-10-022
APPENDIX A



      •   Impact Analysis, “CIO – LAN [Local Area Network] Technical Refresh”
          (Marshall).

  To assess the status of NASA efforts and plans to move forward with IPv6 integration
  since OMB announced the release of the IPv6 Planning Guide on May 20, 2009, we
  interviewed the NASA OCIO Enterprise Architect, the Associate CIO for Architecture
  and Infrastructure, Marshall’s Deputy CIO, Kennedy’s Network Engineer, the NISN
  Service Owner for Corporate Routed Data Service, and the NISN Network Engineer. To
  determine whether NASA implemented the final rule in the Federal Register to amend
  the Federal Acquisition Regulation “to ensure that all new IT acquisitions using Internet
  Protocol are IPv6 compliant,” we interviewed the Kennedy Procurement Director. We
  did not review enterprise architecture or capital planning and investment control
  activities.

  To evaluate the effectiveness of controls and processes for devices configured to enable
  IPv6, we reviewed the certification and accreditation documentation for the NISN
  corporate backbone. In November 2009, the NISN Network Engineer identified 12 core
  routers that had been configured to enable IPv6. These 12 core routers were part of the
  NISN corporate backbone, which included 381 routers, switches, and servers.
  SecureInfo Corporation, an independent third-party contractor, certified the NISN
  corporate backbone in August 2009. We accepted SecureInfo’s determination that an
  adequate level of information system security existed to protect the information
  processed by the NISN corporate backbone. SecureInfo’s certification included a review
  of controls from NIST Special Publication 800-53, Revision 2, “Recommended Security
  Controls for Federal Information Systems,” and a vulnerability scan using McAfee
  Foundstone.

  Use of Computer-Processed Data. We did not assess the reliability or validity of the
  data produced by McAfee Foundstone, because it is a widely used tool approved by
  NASA for vulnerability scanning. In addition, the data’s reliability and validity would
  not impact our conclusions or recommendation.


Review of Internal Controls

  We examined controls for ensuring appropriate IPv6 planning as required by OMB. We
  discussed the control weakness we identified in the Results section of this report. Our
  recommendation, if implemented, will improve the identified weakness.




REPORT NO. IG-10-022                                                                          17
                                                                                       APPENDIX A



Prior Coverage

     During the last 5 years, the Government Accountability Office (GAO) has issued two
     reports of particular relevance to the subject of this report. Unrestricted GAO reports can
     be accessed over the Internet at http://www.gao.gov.

     “Internet Protocol Version 6: Federal Government in Early Stages of Transition and Key
     Challenges Remain” (GAO-06-675, June 30, 2006)

     “Internet Protocol Version 6: Federal Agencies Need to Plan for Transition and Manage
     Security Risks” (GAO-05-471, May 20, 2005)




18                                                                          REPORT NO. IG-10-022
APPENDIX B




                                                                               GLOSSARY


  American Registry for Internet Numbers. A Regional Internet Registry, the American
  Registry for Internet Numbers is a non-profit membership organization established for
  the administration and disruption of IP addresses in the United States, Canada, many
  Caribbean, and North Atlantic islands.
  (Source: https://www.arin.net/knowledge/arin_glance.pdf, accessed March 30, 2010)

  Backbone. OMB M-05-22 identified “network backbone” as another name for an
  agency’s infrastructure. OMB’s IPv6 Frequently Asked Questions
  (http://www.cio.gov/documents/IPv6_FAQs.pdf) document states that the backbone
  includes the wide area network (WAN) core up to the local area network (LAN) point of
  demarcation, describing the LAN demarcation point as the device (e.g., router or switch)
  that services workstations. The Federal Chief Information Officers Council further
  defined the backbone, in the Architecture and Infrastructure Committee’s
  “Demonstration Plan to Support Agency IPv6 Compliance,” January 28, 2008, as “the
  operational core backbone network or the set of network transport devices (routers,
  switches) which provide the highest level of traffic aggregation in the network, and thus
  at the highest level of hierarchy in the network.”

  Domain Name System. DNS helps users to find their way around the Internet. Every
  computer on the Internet has a unique IP address. Because IP addresses are a string of
  numbers (e.g., 207.151.159.3), they are hard to remember. DNS makes using the Internet
  easier by allowing a domain name to be used instead (e.g., www.internic.net).
  (Source: http://www.icann.org/en/general/glossary.htm#D, accessed May 18, 2010.)

  Dual-Stack. Dual-stack is a transition mechanism in which the Internet host or router is
  capable of communicating using IPv4 and/or IPv6. The term “dual-stack routing” refers
  to a network that is dual IP, that is to say all routers must be able to route both IPv4 and
  IPv6. (Sources: The Architecture and Infrastructure Committee of the Federal Chief
  Information Officers Council “IPv6 Transition Guidance,” online at
  http://www.cio.gov/Documents/IPv6_Transition_Guidance.doc, accessed May 26, 2010;
  and the NIST USGv6 Profile, online at http://www.antd.nist.gov/usgv6/usgv6-v1.pdf,
  accessed May 26, 2010.)

  Internet Assigned Numbers Authority. Responsible for the global coordination of
  Internet protocol resources, the Internet Assigned Numbers Authority was originally
  responsible for the oversight of IP address allocation, the coordination of the assignment
  of protocol parameters provided for in Internet technical standards, and the management
  of the DNS, including the delegation of top-level domains and oversight of the root name
  server system. Under the Internet Corporation for Assigned Names and Numbers, it
  continues to distribute addresses to the Regional Internet Registries, coordinate with the


REPORT NO. IG-10-022                                                                             19
                                                                                      APPENDIX B



     Internet Engineering Task Force and others to assign protocol parameters, and oversee
     the operation of the DNS. (Source: http://www.icann.org/en/general/glossary.htm#I,
     accessed May 18, 2010.)

     Internet Corporation for Assigned Names and Numbers. A not-for-profit public-
     benefit corporation formed in 1998 with participants from all over the world and
     dedicated to keeping the Internet secure, stable, and interoperable.
     (Source: http://www.icann.org/en/about/, accessed May 19, 2010.)

     Internet Engineering Task Force. This international community of network designers,
     operators, vendors, and researchers is concerned with the evolution of the Internet
     architecture and the smooth operation of the Internet. It is open to any interested
     individual. (Source: http://www.ietf.org/, accessed May 18, 2010.)

     Internet Protocol. The communications protocol underlying the Internet. IP allows
     networks of computers to communicate with each other over a variety of physical links.
     Computers on the Internet use IP addresses to route traffic and establish connections
     among themselves; people generally use the human-friendly names made possible by the
     Domain Name System. (Source: http://www.icann.org/en/general/glossary.htm#I,
     accessed May 19, 2010.)

     Internet Standard. An Internet Standard is a specification for using the Internet that has
     been adopted through the Internet Standards process, an activity that is organized and
     managed on behalf of the Internet community by the Internet Architecture Board and the
     Internet Engineering Steering Group. In outline, the process of creating an Internet
     Standard is straightforward: a specification undergoes a period of development and
     several iterations of review by the Internet community and revision based on experience,
     is adopted as a Standard by the appropriate body, and is published. (Source: Network
     Working Group, RFC2026, BCP9, “The Internet Standards Process – Revision 3,” online
     at http://www.rfc-editor.org/rfc/bcp/bcp9.txt, accessed March 30, 2010.)

     Internet Stream Protocol, Version 2 (ST2). ST2 is an experimental specification and is
     not an Internet Standard. The “experimental” designation typically denotes a
     specification that is part of some research or development effort. Both ST2 and IP apply
     the same addressing schemes to identify different hosts. ST2 differs from IP packets in
     the first four bits, which contain the internetwork protocol version number. Because
     number 5 is reserved for ST2, the IP version developed to replace IPv4 was assigned
     number 6. (Sources: Network Working Group, RFC1819, “Internet Stream Protocol
     Version 2 (ST2) Protocol Specification – Version ST2+,” online at http://www.rfc-
     editor.org/rfc/rfc1819.txt, and RFC2026 or Best Current Practice 9, “The Internet
     Standards Process – Revision 3,” online at http://www.rfc-editor.org/rfc/rfc2026.txt,
     accessed March 30, 2010.)

     IP Address. A numerical address by which a location in the Internet is identified.
     (Source: http://www.icann.org/en/general/glossary.htm#I, accessed May 19, 2010.)


20                                                                         REPORT NO. IG-10-022
APPENDIX B



  IP Aware. As used by OMB, an “IP-aware” device is one that is capable of recognizing
  the Internet protocol needed to communicate over the Internet.

  IPv6 Capable. OMB provides two meanings for the term “IPv6 capable.” The first
  refers to an agency’s network backbone being capable of successfully passing IPv6 data
  traffic and supporting IPv6 addresses. The second refers to the technical specifications of
  a device, such as a computer. OMB notes that the terms “IPv6 compliant” and “using
  IPv6” in M-05-22 are synonymous with “IPv6 capable.” (Source: OMB’s IPv6
  Frequently Asked Questions, online at http://www.cio.gov/documents/IPv6_FAQs.pdf,
  accessed May 19, 2010.)

  IPv6 Compliant. See “IPv6 Capable.”

  IPv6 Enabled. The term “IPv6 enabled” is used to describe a network backbone that is
  not only capable of supporting IPv6 (IPv6 capable) but is actually “turned on” – implying
  that IPv6 traffic is actually successfully passing through the network. (Source: OMB’s
  IPv6 Frequently Asked Questions, online at
  http://www.cio.gov/documents/IPv6_FAQs.pdf, accessed May 19, 2010.)

  Network Address Translation (NAT). Network address translation is a method by
  which IP addresses are mapped, providing transparent routing to end hosts. An address
  realm is a network domain in which the network addresses are uniquely assigned to
  entities such that datagrams (packets) can be routed to them. The term “transparent
  routing” is used here for the routing functionality that a NAT device provides, which is
  different from the routing functionality provided by a traditional router device, which
  routes packets within a single address realm. Transparent routing refers to routing a
  packet between disparate address realms by modifying address contents in the IP header
  to be valid in the address realm into which the packet is routed. The need for network
  address translation arises when a network’s internal IP addresses cannot be used outside
  the network because they are invalid for use outside or the internal addressing must be
  kept private from the external network. (Sources: Network Working Group, RFC2663,
  “IP Network Address Translator (NAT) Terminology and Considerations,” online at
  http://www.rfc-editor.org/rfc/rfc2663.txt and http://en.wikipedia.org/wiki/Datagram,
  accessed May 28, 2010.)

  Network Backbone. See “Backbone.”

  Technology Refresh. The periodic replacement of equipment to ensure continuing
  reliability of equipment or improved speed and capacity.
  (Source: http://www.cryer.co.uk/glossary/t/technology_refresh.htm, accessed May 21,
  2010.)




REPORT NO. IG-10-022                                                                            21
                                                                                     APPENDIX B



     Transition Mechanism. Transition mechanisms ensure IPv4 and IPv6 interoperability.
     These mechanisms are categorized in the following three broad classes: dual-stack,
     tunnels (including configured and automatic tunnels), and translation mechanisms.
     (Source: The Architecture and Infrastructure Committee of the Federal Chief Information
     Officers Council “IPv6 Transition Guidance,” online at
     http://www.cio.gov/Documents/IPv6_Transition_Guidance.doc, accessed May 26, 2010.)

     Tunneling. Tunneling is a transition mechanism that encapsulates one version of IP in
     another so the packets can be sent over a backbone that does not support the encapsulated
     IP version. For example, when two isolated IPv6 networks need to communicate over an
     IPv4 network, dual-stack routers at the network edges can be used to set up a tunnel that
     encapsulates the IPv6 packets within IPv4, allowing the IPv6 systems to communicate
     without having to upgrade the IPv4 network infrastructure that exists between the
     networks. (Source: The Architecture and Infrastructure Committee of the Federal Chief
     Information Officers Council “IPv6 Transition Guidance,” online at
     http://www.cio.gov/Documents/IPv6_Transition_Guidance.doc, accessed May 26, 2010.)




22                                                                        REPORT NO. IG-10-022
APPENDIX C




                                                    GUIDANCE FOR TESTING IPV6
                                                                 CAPABILITIES


  One of the requirements in OMB M-05-22 was for agency infrastructures (network
  backbones) to be IPv6 capable and to demonstrate that capability by June 30, 2008. For
  our evaluation of NASA’s compliance with this requirement, we reviewed the “National
  Aeronautics and Space Administration (NASA) Agencywide IPv6 - Demonstration
  Plan,” June 6, 2008; NASA’s testing documentation; and the following guidance.


Guidance from OMB

  The wording in M-05-22 led to some confusion, which OMB addressed in “Federal
  Government Transition Internet Protocol Version 4 (IPv4) to Internet Protocol Version 6
  (IPv6), Frequently Asked Questions,” February 15, 2006. M-05-22 (see Appendix E)
  had stated the requirement as “must be using IPv6,” which the IPv6 Frequently Asked
  Questions document clarified as meaning that agencies needed to demonstrate IPv6
  capability on their network backbones by June 30, 2008 (see the “IPv6 Capable” glossary
  entry in Appendix B).

  OMB’s IPv6 Frequently Asked Questions document states that the backbone includes the
  wide area network (WAN) core up to the local area network (LAN) point of demarcation,
  describing the LAN demarcation point as the device (e.g., router or switch) that services
  workstations. The document also stated the specific actions required to meet the
  requirement:

         Agencies must be able to demonstrate they are capable of performing at least the
         following functions, without compromising IPv4 capability or network security:

             •   Transmit IPv6 traffic from the Internet and external peers, through the core
                 (WAN), to the LAN.

             •   Transmit IPv6 traffic from the LAN, through the core (WAN), out to the
                 Internet and external peers.

             •   Transmit IPv6 traffic from the LAN, through the core (WAN), to another
                 LAN (or another node on the same LAN).

         The requirements for June 30, 2008 are for the network backbone (core) only.
         Applications, peripherals, and other IT assets which are not leveraged in the
         execution of the functions mentioned above are not required for the June 30, 2008
         deadline.




REPORT NO. IG-10-022                                                                            23
                                                                                                      APPENDIX C



                Agencies should verify this new capability through testing activities. Agencies are
                required to maintain security during and after adoption of IPv6 technology into the
                network core.


Guidance from the Federal Chief Information Officers Council

     In January 2008, the requirements stated in OMB’s IPv6 Frequently Asked Questions
     document were restated in the “Demonstration Plan to Support Agency IPv6
     Compliance” issued by the Architecture and Infrastructure Committee, Federal Chief
     Information Officers Council. The document’s purpose was to provide guidance and
     describe procedures to demonstrate IPv6 compliance, which it stated as showing “that
     IPv6 traffic has been successfully transported (i.e., received, processed, forwarded)
     through all IPv6 devices in an Agency’s operational core backbone network.”

     Specifically, the Demonstration Plan stated that agencies must successfully demonstrate
     the following functions in order to be compliant with OMB’s requirement:
            •   Transmit IPv6 traffic from the Internet and external peers, through the network
                backbone (core), to the LAN. 21
            •   Transmit IPv6 traffic from the LAN, through the network backbone (core), out to
                the Internet and external peers.
            •   Transmit IPv6 traffic from the LAN, through the network backbone (core), to
                another LAN (or another node on the same LAN).




     21
          The Demonstration Plan defined the term “LAN” for demonstration purposes as representing
          “IPv6-configured PCs/Laptops (with associated cabling and switching as needed), directly connected
          to IPv6 devices (routers, switches) in an Agency’s operational core backbone network.”



24                                                                                      REPORT NO. IG-10-022
APPENDIX D




                                                REQUIREMENTS AND GUIDANCE
                                                     FOR A TRANSITION PLAN


  For our evaluation of NASA’s plans and efforts toward IPv6 transition and integration,
  we reviewed the following requirements and guidance to determine compliance for an
  appropriate transition plan.


OMB Requirements for a Transition Plan

  OMB Memorandum M-05-22, “Transition Planning for Internet Protocol Version 6
  (IPv6),” August 2, 2005, requires agencies to address each of the actions in Attachment C
  in the agency’s IPv6 transition plan using the transition guidance issued by the Federal
  Chief Information Officers Council Architecture and Infrastructure Committee.

  Following is the attachment from M-05-22:
         Attachment C: Transition Activities (Notional Summary of CIO Council
                       Guidance)

         The CIO Council will develop additional transition guidance as necessary
         covering the following actions. To the extent agencies can address these actions
         now, they should do so. Beginning February 2006, agencies’ transition activity
         will be evaluated using OMB’s Enterprise Architecture Assessment Framework:

             •   Conduct a requirements analysis to identify current scope of IPv6 within
                 an agency, current challenges using IPv4, and target requirements.
             •   Develop a sequencing plan for IPv6 implementation, integrated with
                 your agency Enterprise Architecture.
             •   Develop IPv6-related policies and enforcement mechanisms.
             •   Develop training material for stakeholders.
             •   Develop and implement a test plan for IPv6
                 compatibility/interoperability.
             •   Deploy IPv6 using a phased approach.
             •   Maintain and monitor networks.
             •   Update IPv6 requirements and target architecture on an ongoing basis.




REPORT NO. IG-10-022                                                                          25
                                                                                     APPENDIX D



Guidance for Elements in the Transition Plan

     IPv6 Transition Guidance. The Architecture and Infrastructure Committee of the
     Federal Chief Information Officers Council issued “IPv6 Transition Guidance” in
     February 2006, providing additional guidance to implement requirements of OMB
     M-05-22. The “IPv6 Transition Guidance” provides detailed “best practices” and
     recommendations to any Federal Government agency introducing IPv6 into its network
     environment. The Guidance includes a list of elements that could be used as the basis for
     an IPv6 transition plan. Although agencies were not required to include all of the
     elements in their transition plans, OMB recommended that each agency cross-check its
     plan against this list to ensure that all transition elements had been considered.

        1.  Identification of strategic business objectives.
        2.  Identification of transition priorities.
        3.  Identification of transition activities.
        4.  Transition milestones.
        5.  Transition criteria for legacy, upgraded, and new capabilities.
        6.  Means for adjudicating claims that an asset should not transition in prescribed
            timeframes.
        7. Technical strategy and selection of transition mechanisms to support IPv4/IPv6
            interoperability.
        8. Management and assignment of resources for transition.
        9. Maintenance of interoperability and security during transition.
        10. Use of IPv6 standards and products.
        11. Support for IPv4 infrastructure during and after 2008 IPv6 network backbone
            deployment.
        12. Application migration (if required to support backbone transition).
        13. Costs not covered by technology refresh.
        14. Transition governance:
                a. Policy
                b. Roles and responsibilities
                c. Management structure
                d. Performance measurement
                e. Reporting
        15. Acquisition and procurement.
        16. Training.
        17. Testing.




26                                                                        REPORT NO. IG-10-022
APPENDIX D



  IPv6 Planning Guide. In May 2009, the Architecture and Infrastructure Committee of
  the Federal Chief Information Officers Council issued the “Planning Guide/Roadmap
  Toward IPv6 Adoption within the U.S. Government,” which lists elements that must be
  included in the transition strategy plan.

      1. Identification of transition priorities.
      2. Identification of transition activities.
      3. Transition milestones.
      4. Transition criteria for legacy, upgraded, and new capabilities.
      5. Dependencies.
      6. Risks and mitigation strategies.
      7. Maintenance of interoperability and security during transition.
      8. Use of the NIST USGv6 Profile to express IPv6 capability requirements for
         specific products.
      9. Transition governance:
            • Policy
            • Roles and responsibilities
            • Management structure
            • Performance measurement
            • Reporting
            • Management actions
      10. Training.
      11. Testing.




REPORT NO. IG-10-022                                                                    27
               APPENDIX E




     OMB M-05-22




28    REPORT NO. IG-10-022
APPENDIX E




REPORT NO. IG-10-022   29
              APPENDIX E




30   REPORT NO. IG-10-022
APPENDIX F




                       MANAGEMENT COMMENTS
                                             Final Report
                                              Reference




                                             changed




REPORT NO. IG-10-022                          31
                        APPENDIX F




Final Report
  Reference




   page 17
  footnote
  added in
 next para-
 graph for
    clarity

  changed




  page 15
  page 17
  changed




       32      REPORT NO. IG-10-022
APPENDIX F




REPORT NO. IG-10-022   33
                                                                              APPENDIX G




                                                       REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Information Officer
     Ames Research Center Chief Information Officer
     Dryden Flight Research Center Chief Information Officer
     Glenn Research Center Chief Information Officer
     Goddard Space Flight Center Chief Information Officer
     Jet Propulsion Laboratory Chief Information Officer
     Johnson Space Center Chief Information Officer,
     Director of Information Technology and Communication Services, Kennedy Space
       Center
     Langley Research Center Chief Information Officer
     Marshall Space Flight Center Chief Information Officer
     Stennis Space Center Chief Information Officer

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Financial Management, Office of Financial Management and
           Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs




34                                                                   REPORT NO. IG-10-022
APPENDIX G



Congressional Committees and Subcommittees, Chairman and
  Ranking Member (continued)

  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Management, Organization, and Procurement
  House Committee on Science and Technology
     Subcommittee on Investigations and Oversight
     Subcommittee on Space and Aeronautics




REPORT NO. IG-10-022                                                        35
Major Contributors to the Report:
   Wen Song, Director, Information Technology Directorate
   Mindy Vuong, Project Manager
   Linda Hargrove, Team Lead
   Deirdre Beal, Auditor
   Scott Riggenbach, Auditor




REPORT NO. IG-10-022                                        37
                                                                                   SEPTEMBER 9, 2010
                                                                        REPORT No. IG-10-022




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY10/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
